<html>
<title> - FBI COMPUTERS: 1992 HARDWARE--2002 PROBLEMS</title>
<body><pre>[Senate Hearing 107-989]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-989

              FBI COMPUTERS: 1992 HARDWARE--2002 PROBLEMS

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON ADMINISTRATIVE OVERSIGHT AND THE COURTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2002

                               __________

                          Serial No. J-107-93

                               __________

         Printed for the use of the Committee on the Judiciary



87-062             U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

        Subcommittee on Administrative Oversight and the Courts

                 CHARLES E. SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JEFF SESSIONS, Alabama
EDWARD M. KENNEDY, Massachusetts     STROM THURMOND, South Carolina
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
RICHARD J. DURBIN, Illinois          ARLEN SPECTER, Pennsylvania
                Benjamin Lawsky, Majority Chief Counsel
                    Ed Haden, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    15
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    41
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     4

                                WITNESS

Higgins, Sherry, Project Management Executive, Office of the 
  Director, Federal Bureau of Investigation, Washington, D.C., 
  Accompanied by Mark Tanner, Deputy Chief Information Officer...     5

                         QUESTIONS AND ANSWERS

Responses of Sherry Higgins to questions submitted by Senator 
  Grassley.......................................................    21
Responses of Sherry Higgins to questions submitted by Senator 
  Schumer........................................................    26

                       SUBMISSION FOR THE RECORD

Higgins, Sherry, Project Management Executive, Office of the 
  Director, Federal Bureau of Investigation, Washington, D.C., 
  prepared statement.............................................    42

 
              FBI COMPUTERS: 1992 HARDWARE--2002 PROBLEMS

                              ----------                              


                         TUESDAY, JULY 16, 2002

                               U.S. Senate,
                     Subcommittee on Administrative
                                  Oversight and the Courts,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer (chairman of the subcommittee) presiding.
    Present: Senators Schumer, Durbin, and Sessions.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order, and I 
apologize to my colleague Jeff Sessions and to all the 
witnesses; I was here and forgot something and so had to go all 
the way back.
    So let me begin and thank all of you for being here and 
thank Jeff again for his patience. He is more patient with me 
than I am with him, which I appreciate.
    Anyway, the events of September 11 have lit a fire under 
Congress, the administration, and most of our Federal agencies, 
especially those on the front lines in the war on terrorism.
    We all agree that the problems with the FBI's technology 
infrastructure have taken on a new urgency since September 11. 
But these problems, as we know, have been around for a long 
time. In fact, the only difference now is that we have 
witnessed firsthand the horrors of terrorism. In the past, 
terrorism was something that mostly happened to people in other 
countries. We know now just how costly that attitude can be.
    Over a year ago, I introduced legislation that would have 
established a review commission to examine the systemic and 
structural problems at the FBI as well as the Bureau's 
relationship with other law enforcement entities.
    I also held a hearing in April of this year that focused on 
how technology and cultural issues were acting as barriers to 
information-sharing between our law enforcement agencies. I 
heard from the Department of Justice, the FBI, and the INS, who 
all readily and forthrightly, to their credit, acknowledge the 
problems they face.
    The Senate Judiciary Committee has held 11 oversight 
hearings since June 2001 on the FBI and the Justice Department, 
focusing on problematic issues from technology to security to 
personnel. I say all this to underscore the fact that no one 
should think that the challenges the FBI is facing today are 
new ones in any way.
    There are a number of new signs that the FBI is headed down 
the right path. In public testimony and in private meetings, 
Director Mueller has been blunt about the hurdles the Bureau 
has to clear in order to become an agency with state-of-the-art 
technology and with personnel who not only know how to turn on 
their computers but can also type, maneuver the mouse, and who 
can successfully use top-of-the-line hardware and software.
    In reading Ms. Higgins' testimony, I was impressed by her 
honesty about the difficult days ahead. Ms. Higgins, your 
frankness and that of the Director is refreshing.
    I am also happy to report that we received Ms. Higgins' 
testimony yesterday over email, in contrast to how we received 
FBI testimony 3 months ago, when the FBI had to personally 
deliver it on a disk, making it impossible to circulate and 
store it online.
    For a long time, the FBI's data base warehouse was like 
Medusa, with over 40 data bases with separate functions 
operating out of the same body but totally disconnected from 
one another. Here are a couple of quick visuals to give you an 
idea of what we are talking about.
    The first visual shows you the FBI's five major 
investigative data bases and how they look now--disconnected 
and disparate. The second visual shows you how the data bases 
will look in a post-Trilogy world--they will be interconnected 
and accessible.
    The Trilogy system takes an enormous step forward, not only 
in connecting these five major investigative data bases, but 
also in ensuring that every agent has a desktop computer to 
use, that every agent knows how to use it, and that every 
analyst can manipulate the resources of information available 
at their fingertips in real time.
    I do not think I have to spell out in too much depth why 
connecting these networks is so important for the future of law 
enforcement. We know now more than ever that the backbone of 
homeland defense is a good information-sharing and coordination 
system between Federal law enforcement and intelligence 
agencies.
    If an agency cannot coordinate information and make it 
easily accessible, the entire house of cards will fall. We all 
felt the effects of this scenario on September 11, and I pray 
to God that we never feel it again. But if we do not fix our 
communication and technological woes, we could.
    Dinosaur-era technology, like the painstaking process it 
takes for an agent to use the automated case system where an 
FBI agent has to make her way through 12 different functions 
just to store a document must be transformed into efficient, 
accessible, streamlined technology.
    Another example of a fossil technology is the FBI's 
inability to search across different data bases by plugging in 
a couple of key words. For example, if an agent wanted to find 
any information available on suicide bombers, say, in the 
United States, he could just type in ``suicide'' or ``bomber'' 
or a related phase like ``homicide bomber'' and come up with 
the relevant information.
    Also, the agent should be able to type in different 
versions of a name--that is, take my own name. If I were to 
spell out S-c-h-u-m-e-r, the search engine should be able to 
find my name regardless of whether it has been misspelled, 
which believe me happens all the time.
    The point here is that the FBI needs technology of the new 
millennium--technology that has some kind of artificial 
intelligence so the agency does not have to pull teeth to get 
one piece of information.
    Glenn Fine, the Inspector General of the Justice 
Department, said in his testimony to the committee few months 
ago, and I quote: ``DOJ concluded that the FBI's troubled 
information systems are likely to have a continuing negative 
impact on its ability to properly investigate crimes and 
analyze information throughout the FBI.''
    According to the FBI, Trilogy gives the Bureau a 
technological foundation upon which it can build. The other 
components of a state-of-the-art system cannot be implemented 
without first implementing the critical parts of Trilogy.
    My sincere hope is that under the leadership of Ms. Higgins 
and Director Mueller, Trilogy will be implemented soon and will 
fulfill its given function. If not, I fear that Inspector 
General Fine's prediction will prove true--and, if true, 
possible disastrous.
    Before I close, I want to recognize a different sort of 
brass tacks. The FBI saw an increase in funding of 
approximately 127 percent from fiscal year 2001 to fiscal year 
2002 for information management, automation, and 
telecommunication, IMAT, which includes all Trilogy-related 
functions. Congress appropriated approximately $223 million in 
fiscal year 2001 and $507 million in fiscal year 2002. This was 
an enormous increase, a jump that we all understand and deem 
necessary.
    In addition, the Senate Appropriations Committee has 
recommended an appropriation of $30 million for the FBI's 
Information Resources Division to help implement Phase II of 
Trilogy in the fiscal year 2002 supplemental. The FBI has 
requested an additional $48 million for fiscal year 2003 for 
IMAT, and I expect that as Congress considers this new request, 
we will want to know a detailed plan for additional funding and 
why it is needed.
    Finally, in preparation for this hearing, I spoke with many 
private sector groups and what they have to say about their 
past dealings with the FBI in terms of lack of policy guidance, 
a heavy bureaucracy, and a general feeling of apathy toward the 
need for the latest technology. I believe that things are 
changing at the Bureau. I have met with some of the people here 
and many others. And I would like to propose the idea of 
forming an advisory group made up of representatives from the 
private sector to work with the FBI on their technology 
development. Perhaps this group could work in conjunction with 
Ms. Higgins' Office of Programs Management, and hopefully, Ms. 
Higgins, we can discuss that idea in today's hearing.
    When Director Mueller testified before the Judiciary 
Committee a few months ago, he stated that it would take 2 to 3 
years from now for the Trilogy system to be up-to-snuff. To me, 
that is unacceptable. I, and I believe the American people, do 
not need another 9/11 to prove how far behind our law 
enforcement agencies are in their communications and 
technological development.
    I find it impossible to believe that we cannot, for the 
safety of our Nation, implement Trilogy any faster. So I will 
be asking you some questions on this issue later in the 
hearing. If Trilogy is indeed the foundation upon which the 
FBI's technology is built, then, we need it not today and not 
tomorrow--we really needed it yesterday.
    Again I thank the witnesses for being here, apologize for 
my tardiness, and call on my patient colleague, the junior 
Senator from Alabama.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for your interest in this important issue.
    Things do happen around here often so fast that it can 
happen to anybody that you do have a conflict that you just 
cannot balance, so I certainly understand that, and I think 
everybody else does, too.
    I will just say a few things about this subject. I remember 
when I was United States Attorney that an effort was made to 
have a computerized system for the FBI that was going to solve 
everybody's problems, that you could be in court and punch in 
the questions, and it would appear for you and all that. And I 
think it was done. I do not know how many millions of dollars 
were spent on it, but that was done.
    There is a tendency today to blame errors on the computer. 
The computer will not work if the information is not put in. It 
will not work if people are not following up. So I do not know 
how to make vague documents for all missed; I think some of 
that was just a failure to read the email that was sent out and 
to followup in each and every field office, who probably 
thought they did not have anything to do with the case.
    I am concerned about the money, and I am glad that you 
mentioned that, Mr. Chairman. This is a huge increase in money. 
I think we have 60-some field offices in America, and we are 
talking about nearly $400 million for this program. That is a 
lot of money for a field office. I trust that we can justify 
that kind of system.
    We are rushing fast, we are trying to do a lot of things at 
once, and we have simply got to watch our expenditures in 
Congress. I am getting troubled by the fact that we seem to be 
losing discipline.
    One more thing. I do believe that you should be sure to 
listen to agents in the field who do the daily work and will be 
inputting the data into this system. They have got to feel 
comfortable with it, it has got to meet their needs, they have 
got to feel comfortable relying on it, or it will not be as 
effective as we would like to see it. I think that is 
important, and in any review that you do, I want to ask about 
that.
    Finally, I think the most dangerous thing in all of this is 
security. I just believe very, very strongly that any system 
that allows broad-based access to security information is 
subject to being penetrated. You have in every FBI office in 
America clerks and staff people and agents. We had a Hansen, 
for that matter, a special agent for the FBI, who was not 
proven reliable and betrayed his country.
    So I want to know that if we make an error, it will be to 
keep this material contained more closely than some might like 
and keep it contained in a way that is very difficult for 
anyone to penetrate.
    Thank you for having this hearing, Mr. Chairman. If we do 
this thing right, I think you are correct that enemy agents 
could be identified quicker than we ever thought possible on 
occasion.
    Thank you.
    Chairman Schumer. Thank you, Jeff.
    Chairman Schumer. Now let me call our single witness here 
today, one witness but a very important one and we believe 
worth a whole hearing.
    Sherry Higgins is new. I had the pleasure of meeting her 
when I asked Director Mueller how are we going to straighten 
this thing out, he had a few-words answer, but among the words 
he mentioned were ``Sherry Higgins.''
    She is the project management executive in the Office of 
the Director at the FBI. She began her career in 1971 with 
AT&T. She was then assigned to Lucent Technologies after AT&T 
split.
    Ms. Higgins has held several positions with both AT&T and 
Lucent, including both the Lucent Chief Information Officer and 
Chief Technical Officer of the Global Program and of Project 
Management. Most recently, she was an instructor of project 
management with the International Institute for Learning, and 
she also supported the Technology Command Center at the 2002 
Salt Lake Olympic Games.
    She has been industry-certified as a project management 
professional through the Project Management Institute since 
1991. She holds master's certificates in both commercial and 
international project management--this biography is a 
mouthful--and was inducted into the International Who's Who of 
Professionals in 2000 and was featured in the August 2000 
edition of CIO magazine.
    Ms. Higgins, your entire statement will be included in the 
record. Please proceed as you wish.

  STATEMENT OF SHERRY HIGGINS, PROJECT MANAGEMENT EXECUTIVE, 
   OFFICE OF THE DIRECTOR, FEDERAL BUREAU OF INVESTIGATION, 
  WASHINGTON, D.C., ACCOMPANIED BY MARK TANNER, DEPUTY CHIEF 
                      INFORMATION OFFICER

    Ms. Higgins. Thank you.
    First of all, I want to thank you for inviting me up here. 
I too think it is a very important issue.
    I want to thank you for inviting me and for your support 
and for what I know will be your continued support.
    I can tell from your charts that both of you have had a lot 
of discussion about Trilogy, and there have been a lot of 
things that you have heard in the past about Trilogy.
    I have been with the FBI for 4 months, and I too have heard 
an awful lot about Trilogy. What I have said, though, and what 
I have instituted within the organization and the teams that I 
have been working with on the Trilogy project is I have been 
given a lot of reasons for why the FBI is where they are right 
now, and what I have asked people to do, though, is not to give 
me a history of excuses, but I will take history as lessons 
learned. We will figure out how not to do things in the wrong 
way or the way that they have been done in the past, but 
improve and move forward.
    Presently on the Trilogy Project, I am not sure how much 
you understand about the way the project is actually divided, 
but it is between a part that they call TNC/IPC and a part that 
they call UAC. One thing that I probably did not put in my 
testimony is that surprise I had when I came to the FBI--I 
thought that the communications industry had a lock on 
acronyms, but I found out that the FBI has more than that.
    The TNC/IPC side is what I call the network and the 
hardware, the actual PC side of it. And the UAC side is the 
applications side. The TNC/IPC side is projected to be 
completed over a year ahead of schedule. The original intent 
was for the program to be a 36-month schedule, and it was 36 
months from the time the contract was awarded, which would have 
put us completing the network and the hardware side sometime in 
May of 2004. The projection for the network side is to complete 
by the first fiscal quarter of 2003, no later than the second 
quarter of 2003.
    The UAC side, or the virtual case file side, the 
application side, is projected to complete on schedule. 
Contract was awarded in June of 2001, and 36 months from that 
would be June 2004.
    The solution that we are implementing now, that we are 
designing now, that we are developing now, is significantly 
different from what was projected from the very beginning. So 
there are things in my testimony that explain that and some 
things that I am going to show you on a powerpoint presentation 
to demonstrate that.
    Communications is improving within the Trilogy Project and 
other programs within the FBI. We are not there yet, but we are 
cross-pollinating information to make sure that we are 
partnering on all the programs that we have within the FBI.
    We are focusing on the right solution, not just the fastest 
solution. We have a constant eye on the schedule to make sure 
that as we are moving down this road and we are putting in the 
right solution that we are looking for anywhere that we can get 
efficiencies and gain a faster schedule.
    The future is bright; I agree with that. And the people who 
are surrounding the Trilogy program feel that the future is 
bright, and they resonate with the Director's view that the 
future is bright, that we are moving ahead.
    On your point, Senator Sessions, one of the things that I 
totally align with is that we do have to have the agents' buy-
in. In developing the UAC or virtual case file component, part 
of that is using what we call a ``joint application design.'' 
That is made up of agents, analysts and support people to look 
at not how do you do your jobs with the tools that are 
existing, but what tools do you need to do your job. So that in 
reality, what we have gotten is buy-in from the beginning. We 
are asking, and we have recognized that they are the ones who 
are going to be using these tools.
    We are not just rebuilding old applications. We are looking 
at a new application and pulling the best information from 
those five investigative applications.
    Trilogy is an enterprise solution. Enterprise solutions 
create and facilitate change, so we are recognizing that. Part 
of the joint application design will be eliminating some old 
business process that are no longer required.
    We have a positive future in our sights where we already 
have a plan in place to not allow Trilogy to get old and 
outdated; we have a plan to change that out as technology 
changes so that it stays current.
    We are assessing the impact of not only those five 
applications but other applicants that we look at and determine 
whether those need to be included or they need to be 
eliminated.
    The Director has established the Office of Programs 
Management for us to have a disciplined approach on not only 
the Trilogy Project but any other highly critical, high-dollar, 
visible project that we have is critical and will support the 
FBI's mission and strategy.
    We as an Office of Programs Management, managing these 
major programs, will be accountable to you as our stakeholders 
and to our other stakeholders, including the end-users. We will 
be developing repeatable processes, we will build in quality, 
and we are set for the future. Trilogy is setting the standard; 
it is the base for us to be able to do all the things that are 
in our vision moving forward.
    Thank you.
    [The prepared statement of Ms. Higgins appears as a 
submissions for the record.]
    Senator Sessions. Mr. Chairman, maybe Ms. Higgins can move 
to the Department of Homeland Security after this.
    Chairman Schumer. Yes. When you finish this one, we are 
going to move you over to Homeland.
    Did you have a presentation?
    Ms. Higgins. Yes, I do have a quick presentation where I 
would like to show you the difference between today's 
environment and our national view--and I have been coached 
several times to make sure that I do not leave here without you 
knowing that this is a national view. And my point in saying 
that is----
    Chairman Schumer. Excuse me. Could you just explain what a 
``notional view'' is?
    Ms. Higgins. I am getting ready to.
    Chairman Schumer. OK.
    Ms. Higgins. A notional view is when you have a contract, 
or you bring a contractor in who is also one of the people in 
the JAD, that joint application development session, you tell 
them what you need--you do not design the solution for them.
    Chairman Schumer. I see.
    Ms. Higgins. So that what you are going to be seeing is a 
view of how the agents and support people would like it to 
look. It will still have the same functions, but it may not 
look exactly like what you are going to see here.
    Chairman Schumer. OK.
    Ms. Higgins. The first thing we are going to do is show 
you--you alluded, Senator Schumer, to the 12 screens--I am just 
going to show you very quickly, going into FBINET, Automated 
Case Support, and Electronic Case File, all the things that you 
have to use just to upload one document.
    Here are the first five screens that every agent has to go 
through. Anything they are going to want to do in ACS, they 
have to go through every, single one of these screens. Those 
are five mandatory screens, and they are all function key-
driven; there is no mouse, no icon, no year 2000 look to it. It 
is all very keyboard-intensive-driven.
    To actually upload a document, you then have these six 
additional screens that you have to go through. The very last 
screen, just to make one more point, is a screen that says you 
now have to print the document after you have uploaded, so it 
can go into the official system of record, because ACS is not 
used as a system of record.
    Chairman Schumer. Do you then have to get out of your seat 
and do a backflip? [Laughter.]
    Ms. Higgins. Yes, sir. [Laughter.]
    Our future planned solution--what I am going to show you is 
the difference between Virtual Case File and ACS and explain 
the workload to you.
    Here is the same thing, showing how you would enter a 
document into the system, be able to submit it and have it 
approved all in one step. An agent will submit information--for 
instance, an intake form--he takes down the information on the 
victim, the victim complaint, he submits the information, the 
supervisor approves it, and then it automatically goes into the 
electronic file. At that point, it is then able to be shared by 
other FBI agents or analysts who can look at that information 
that has just been submitted.
    Over top of that, there will be a Data Mining Application--
--
    Senator Sessions. In other words, they could do the 
interview and actually enter the data instead of taking notes, 
and it is immediately in the system?
    Ms. Higgins. Absolutely, absolutely. And it can be done 
both ways. It can be done by not being in front of the 
computer, writing it down, and then, it is a lot easier to just 
immediately go into the system.
    We will have the Data Mining Application, which I believe 
both of you alluded to, which will allow the agent to not only 
get information from the virtual case file, but those other 
stovepipe applications, and also be able to go out and mine 
information from other agencies.
    What they are going to be able to do then is what the agent 
calls ``mining for gold.'' They will go out and grab a bunch of 
the information, put it together in their analytical work box, 
and in that analytical work box, they are able to say, ``Now I 
have something.'' They will submit that, it is approved, and it 
goes into the electronic case file, and it is ready to be 
viewed or collaborated or shared with other people within the 
FBI.
    Chairman Schumer. What is the process for someone else in 
the FBI seeing that file under this new system?
    Ms. Higgins. Depending on the----
    Chairman Schumer. Do they have to get separate approval or 
anything like that?
    Ms. Higgins. If they are within the FBI and they have the 
same level of security, their job title will drive how much of 
the information they will be able to see.
    Chairman Schumer. So if I am an agent in Minneapolis, I 
could get hold of a file, let us say, to take another place in 
Phoenix?
    Ms. Higgins. Right.
    Chairman Schumer. Right away?
    Ms. Higgins. Right.
    Chairman Schumer. OK--which could not happen before, I take 
it.
    Ms. Higgins. Exactly.
    Chairman Schumer. Before, you had to get 16 different 
approvals, and you would virtually never get it.
    Ms. Higgins. Exactly. And to speak to your issue of Hansen, 
we will have audits built into this so that you will be able to 
see who has been looking at my case, what other people have 
done what to this case, so we have audit trail there.
    Senator Sessions. Is this the time to ask a question?
    Chairman Schumer. Yes, why not?
    Senator Sessions. All right. Would the memorandum from 
Arizona be immediately available for review by a person in 
Minnesota who had a similar type situation, or would the 
computer simply register that there was relevant information of 
some kind? In other words, would a memo such as the one written 
in Arizona and/or the one written in Minnesota--to me, both of 
those were pretty sensitive information, and there are a lot of 
people who have access to computers--FBI offices are open 24 
hours; you have clerks in there and other people. I think it 
would be pretty easy, if you were determined over a period of 
time, to get somebody in there who knew how to penetrate the 
system.
    Is there any limit on that?
    Ms. Higgins. The first question that I think you are asking 
me is about being able to actually do a collaboration--will the 
document be there so that other agents can see that 
information. And yes, out of that virtual work box, the 
analytical work box that I explained in our earlier screen, it 
will be immediately available to other agents in the field.
    As far as being able to hack into the system or be able to 
bypass security regulations, we are working with the security 
program--they are part of our project team--to make sure that 
we have built in the security as opposed to bolting it on.
    So we are using industry practices and using input from the 
security department. We also have people from security who have 
come over from different agencies. So we are implementing that 
as we go.
    Senator Sessions. I am just thinking about--Mr. Chairman, 
let us say there are people in your city--and I know how deeply 
you care about this and how real it is to the people of New 
York; it is not academic, it is very, very real--but we are out 
interviewing people right now, people are getting information 
on a confidential basis. There has been abuse over the years in 
my view by police and FBI agents saying, ``My informant's 
information is so secret, I do not ever tell anybody,'' which 
is an overreaction in one way. But at the same time, they would 
be dead--there are people living in the community who are 
providing information this day, and if that information goes 
into the system and somebody identifies who they are, they will 
disappear tomorrow. So this is really serious about our 
security, not counting the potential danger in a lot of other 
ways.
    Chairman Schumer. It is an interesting--Senator Sessions is 
right. I asked Director Mueller why things were so backward. It 
is my view that the FBI system, at least as of 9/11, was more 
rudimentary than the system that I bought my 7th grade daughter 
for $1,400. He said there are two reasons. One, he said the FBI 
always had the attitude that ``We can do it better,'' instead 
of relying on all the geniuses in Silicon Valley and everybody 
else, they invented their own system, and they were not too 
good at it.
    But the second reason, which is the one you bring up, is 
security. Obviously, you do not want a system that is simply 
open to everybody because of classified information, because of 
investigative problems, et cetera. And I guess the balance you 
face is to make it as accessible and as open as possible so an 
enterprising agent in Minnesota can get to see a lot of 
information that other agents have had, and at the same time, 
not having such information, certain sensitive information, be 
too accessible.
    But I take it that with passwords and certain codes, you 
can sort of have an open system with certain blockages that you 
need special clearance to get to and so on.
    Am I wrong about that?
    Ms. Higgins. No; you are right.
    Senator Sessions. I just think this has got to be given 
attention, because if every agent can access and input into the 
system, and you have one bad agent, the whole system is drained 
of intelligence in an exceedingly bad event.
    Chairman Schumer. Yes; a very good point.
    What do you say to that? I mean, the advantage of the 
internet is a two-edged sword, as we learned about 9/11. What 
do you say to the fact that if you get a high-up person in the 
system, they might be able to get every bit of information on 
that system and give it to an enemy? How do we deal with that? 
That is a very serious and good question.
    Ms. Higgins. There are several items that I want to bring 
up in response to that. One is that, again, we have audits 
built into the system so that we can get flags, know that 
someone who is not at the level of a certain case to be able to 
work on that case--we know that someone else has been working 
in it.
    We are also regulated so that not all information is shared 
so that you can protect the individuals, too. I am not going to 
profess to know what all of those laws and regulations are. I 
just know that they are there, and I am digging deep into them 
to try to make sure that we are making the system as flexible 
but as secure as it possibly can be.
    As far as sharing the information or the amount of 
information being able to be shared or be released or someone 
getting into the system, technology can provide the solution, 
and I totally agree with you that the system is only as good as 
the human being who designed that system. On the other side of 
that, you can only protect the system--you have to look at what 
level of risk you are willing to assume, and that is what we 
are up against right now, looking at what level of risk we are 
willing to assume--not that there is not a solution to give all 
that information or to block all the information. You do not 
want to do one or the other. You have got to figure out that 
level of risk. And that is what we are working on.
    Chairman Schumer. The fact of the matter is that a foreign 
agent high up in the FBI could do a lot more damage in terms of 
retrieving and sending information under our new system than 
under the old one. That is something that we have to be aware 
of. Is that fair to say?
    Ms. Higgins. I think we have more control.
    Chairman Schumer. You do?
    Ms. Higgins. Yes, I do.
    Chairman Schumer. It is freer and it has more controls.
    Ms. Higgins. Yes, yes.
    Chairman Schumer. Let us hope.
    Ms. Higgins. And it is going to be easier to use--and we 
have had agents' input.
    Senator Sessions. Well, we know that wars have been ended 
quickly and terminated one way or the other because of breaches 
in intelligence. The code-breakers in World War II and other 
wars have literally made the difference in who won key battles. 
I just do not think you can put too much emphasis on that. 
Frankly, I would say that the most sensitive things that are 
being done at the Intelligence Center of the FBI probably 
should be on an entirely different system in my view and should 
not be accessible to people around the country.
    In other words, that team in my vision has always been--the 
team in Washington or wherever it is located will be the one to 
spot the patterns, spot the duplications, and give notice to 
the agents in the field, rather than allowing them to 
necessarily peruse everything that is in the system. It just 
looks for hot points.
    Chairman Schumer. Do you want to keep going? Did you finish 
your presentation?
    Ms. Higgins. Do you want me to just show you a couple of 
other things within the notional view----
    Chairman Schumer. Yes, and then I have a few questions, and 
maybe Senator Durbin does.
    Ms. Higgins. OK. Again, this is the notional view of the 
virtual case file. This would be the work space or the actual 
home page of an agent. When they walk in in the morning, they 
will see this. On the left-hand side are the items that are 
what they do every day, the frequently used activity, if you 
are familiar with work space on your daughter's PC.
    What I want to do is show you that same intake form that we 
were talking about earlier and show that the information would 
be inputted into a screen like this, it will be mouse-driven, 
it will have pull-down screens so you do not have to type 
everything in. It gives you the capability to put in free-form 
comments at the bottom. What would happen here is the agent 
would input the information and would then submit the 
information to the supervisor, and the supervisor can then, 
from another screen, assign it to one of the agents within 
their squad.
    What they will have there on notional view again is a list 
of agents within their squad, so it is a simple case of just 
clicking and being able to pick a particular agent and assign 
the work to him. What the agent will then see is their activity 
within their caseload. They will be alerted to new information 
within their toolbox, within their caseload.
    In this particular case, if you look at the very first 
item, they can drill down on that information to see what new 
has been added to their toolbox. In this particular case, they 
see that it is one of the last items, and there were pictures 
that were uploaded into the virtual case file.
    Chairman Schumer. And that happens automatically--any time 
on some case, some other agent has added new information, they 
will get a ``tickle'' that says go look at it.
    Ms. Higgins. Right. One of the things that is significant 
here, too, is that it is given the capability to put multimedia 
into the case file. Another thing that is significant about 
this is that the information stays resident with the file as 
opposed to staying in another locked are or another system of 
record; it is now resident with the case.
    So the whole thing that I was showing you there goes back 
to the discussion that I was talking about business processes 
changing. if you look here, that is the intake form. It serves 
the functions in the middle, but what it is actually doing is 
replacing at least five different forms, handwritten 
information, and a printed copy that goes into an actual system 
of record.
    Our work is investigative by nature. This shows that they 
are able to put in their information, and it is one of the 
other forms that will tell you, when you ask ``What is it that 
I want to document?'' you will be able to----
    Chairman Schumer. This looks like pretty standard stuff.
    Ms. Higgins [continuing]. Exactly--and you will be able to 
click on it, and instead of bring you up a screen, like NACS, 
where you have 12 screens, depending on the activity that you 
want to do, it is only going to bring up those screens. So it 
is a productivity tool.
    Chairman Schumer. Let me ask you a couple of other 
questions if I could, Ms. Higgins. How about the problem--we 
have talked with Trilogy about getting the FBI system to talk 
to one another. What preparation is being made to get the FBI 
systems to talk to other Federal Government computer system, 
whether it be INS or CIA or Social Security or Border Patrol, 
et cetera? Is the system that you are building done with that 
in mind, or not? Tell me a little about that.
    Ms. Higgins. Yes, it is. As I said before, we are setting 
the enterprise architecture standard for the FBI that will 
allow us in the future to share information with other 
agencies. We are making sure that we are using the actual 
technology that will allow us to integrate and share 
information with Department of Justice or the Department of 
Defense, CIA, whoever it is--so that we have the same type of 
technology, the same products, that we have data warehouses, 
and in some cases, we are even using the same vendor so that we 
will be complementary to each other.
    Chairman Schumer. So that when this is finished in the 
second quarter of 2003, at least the hardware will be able, let 
us say, to talk to INS' computer system?
    Ms. Higgins. We will be able to lay the plan. We are laying 
the foundation. The plans to be able to do that would be 
another program. Trilogy is laying the foundation for the 
enterprise architecture.
    Chairman Schumer. I see. So you will have the hardware to 
do it, you will have the underlying method of doing it, but you 
have still got to work out the deal with each of the different 
agencies.
    Ms. Higgins. Absolutely.
    Chairman Schumer. OK. And what about similarly with our 
allies internationally--clearly, you are going to have more of 
a need to talk to them. Let me give you one example.
    As you know, when it comes to fingerprints, there are two 
types--flat and rolled. And many of our allies have created 
civil fingerprint systems for travel visas and other purposes 
that use the flat print. INS, as I understand it, also uses the 
flat print.
    Because of the Patriot Act, the Border Security Act, we are 
going to have to start running these flat prints of foreign 
travelers against your system for homeland security 
protections, the FBI system.
    But from what I understand, the FBI's current finger print 
analysis system has something like a 40 percent error rate when 
it processes flat prints because it is set up to handle rolled 
prints which are used for criminal investigations. So batting 
600 may get you into the Hall of Fame, but it is not good 
enough when it comes to fighting terrorism.
    That is just one example of the hundreds of problems that 
you face, but how are we dealing with that problem?
    Ms. Higgins. I wish I could answer that question for you. 
As far as the program that you are talking about and being part 
of that data base, the fingerprint system that you are talking 
about is not part of Trilogy. So what I can do is get back to 
you with an answer to that, but I cannot personally answer it.
    Chairman Schumer. Does anyone else have an answer here?
    Mr. Tanner. I am Mark Tanner. I am the Deputy CIO, so I 
have information about all of our FBI systems.
    I do know something about the fingerprint system, that is 
the IAFIS, the Integrated Automated Fingerprint Information 
System. It is a 10-print system. It is a rolled fingerprint 
system that is used for identification of people. It is not 
wholly compatible with the flat fingerprint technologies, but 
there is a lot of research being undertaken to make those 
systems more compatible.
    The IAFIS does, though, establish a standard for 
fingerprint minutiae and identification purposes which is 
shared with the international partners----
    Chairman Schumer. Right, but it has a pretty high error 
rate, doesn't it?
    Mr. Tanner. No. IAFIS, with the rolled fingerprint, has a 
very low error rate. It was designed to give us a 2-hour 
turnaround on a criminal fingerprint identification and a 24-
hour civil print identification, and it is meeting those 
expectations. But a flat print may provide you a candidate list 
of persons, but it will have to go through a visual inspection 
to make the actual identification.
    Chairman Schumer. It will take a lot longer, I imagine.
    Mr. Tanner. It will take longer. But it is a technology 
that can mature.
    Chairman Schumer. If you could, Ms. Higgins, in writing 
just get back to us as to how we are dealing with that issue.
    Now, what about what I mentioned at the beginning--getting 
this private sector advisory board on board. We have just 
looked at corporate responsibility here, and what we found is 
that it is good for the accountants to have somebody else 
looking over their shoulder, giving them advice, to make sure 
they are not just in their own world, et cetera, particularly 
given what the old FBI mentality was, at least according to 
Mueller--``We can do it better, and we will do it our own 
way''--which did not lead to too much good.
    What about the idea of some kind of private sector advisory 
board composed of top-level people who would really work 
closely with you--may even lend you people on a full-time basis 
for a period of time to help give suggestions for improvements. 
My guess is that some of these people will have come up against 
similar problems that you have had. Obviously, the emphasis on 
security is higher for the FBI than for most other places. But 
tell me what you think of that.
    Ms. Higgins. I totally support it, and I know the Director 
supports it, too. There are plans to look at just that. We have 
looked at how we would do that. So I know the Director supports 
it, and I also support that.
    Chairman Schumer. Could we talk about--and I will call on 
Senator Durbin in a minute; I have been here a long time on 
these questions--my constituents in New York have a personal 
interest in this, and when Director Mueller said it would take 
3 years to get everything up and working, we said, gee whiz, we 
do not want to risk another horrible attack. Nobody in 
America--nobody in the world--does.
    Now the timetable has moved up a little bit, but what are 
the barriers--what are the barriers to moving up the timetable 
further? Is it fiscal? Is it that you do not have the right 
personnel? Boil it down to its brass tacks. Given that this 
should be one of the highest priorities that America has, it is 
still going to take us a couple of years before both the 
hardware and then the application of the hardware is really 
working, up and available.
    Did you say 2004?
    Ms. Higgins. Yes. June 2004 will be its completion.
    Chairman Schumer. That seems like an awfully long time 
given how important this is. What are the barriers, and what if 
anything can be done to move that timetable up?
    Ms. Higgins. The right solution takes a longer time than 
just to get a solution. Let me backstep. We recognize the fact 
that June 2004 for the final completion date of this project is 
an extremely long time. There is nobody within the FBI who does 
not have that focus of wanting to get something into the hands 
of the agents as quickly as possible.
    When you are looking at what it is that needs to be done as 
far as what is the right tool, that in itself takes time. And 
looking at old systems that do not have a lot of 
documentation--it takes time to recreate documentation just to 
be able to implement the new system to make sure that you have 
a lot of that information that is out there.
    Chairman Schumer. But isn't that a personnel--you could 
hire more people to take the old documentation and update it; 
right?
    Ms. Higgins. Part of it is resources, part of it is 
knowledge of what is existing out there to make sure that it is 
in there. But it is also making sure we have the right solution 
in place. We have people who are very focused on putting in the 
right solution from a standpoint of bringing in other resources 
that are from outside industry--that might help in some cases--
but what you have really got to focus on is the right tool for 
the agents, so you will need to use the FBI resources and the 
FBI intelligence. There are very many bright people within the 
FBI, but this is a new solution.
    Chairman Schumer. So it is a learning curve issue more than 
just about anything else?
    Ms. Higgins. Well, it is a combination of things. It is a 
learning curve; it is the fact that we do not have the 
documentation to be able to implement the solution--for 
instance, to take ACS and say we know everything that is there, 
so only take these parts. There is documentation that is 
missing, so you have got to identify where the parts are.
    One of the things that I was going to say, though, is that 
between now and June of 2004, we are looking at ways to relieve 
the pain so that the agents are not in pain until the first 
delivery in December of 2003. We are looking at putting search 
engines out there that will be faster and more efficient and 
more robust. We are looking at putting fixes--not fixes, but 
pain relievers, what I keep calling pain relievers--into the 
system to do things like be able to monitor when someone is in 
your cases.
    We are looking at every way that we can while we are 
implementing the right solution to provide pain relievers along 
the way.
    Chairman Schumer. I have a written question for you which I 
will not ask you to answer now, and then I will turn to Senator 
Durbin. But if I were the Director of the FBI, and I said, 
``You have a mandate to cut 6 months off that timetable 
deadline,'' what would you do?
    I am not asking you for an answer now, but I am going to 
ask you that in writing, and maybe you can give us some 
answers.
    Ms. Higgins. I appreciate you not asking me that, and I 
will explain later why.
    Chairman Schumer. That Southern charm gets me every time.
    [Laughter.]
    Chairman Schumer. Senator Durbin?
    Senator Durbin. Southern Brooklyn.
    Chairman Schumer. Southern Brooklyn--he knows; he has been 
there.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Ms. Higgins, for joining us 
today. I am going to ask a series of questions, but first let 
me relate for a moment to a question asked by Senator Schumer.
    I am serving on this Committee on the Judiciary, 
Governmental Affairs, and Intelligence, so I hear about this 
issue from many different angles, and it strikes me that there 
is one thing that we are overlooking, and it was raised by 
Senator Schumer, and that is that I think it is a great idea--
and I applaud the idea--to bring in the experts to the FBI to 
take a look at it--can we do this better and faster, can we 
create something that can grow with the agency's needs. But for 
lack of a better word, the interoperability with other agencies 
is also critical.
    We are considering the creation of another agency which 
will collect, maybe generate, intelligence data--the Department 
of Homeland Security--which will join four or five other 
agencies. The question is whether each of these agencies is 
designing its computers in a way that they can ultimately work 
together. I do not believe that any successful business would 
consider having separate branches with totally different 
computer systems that cannot communicate.
    One of the things that I have thought about and that I am 
going to propose as part of the Department of Homeland Security 
is something like a Manhattan Project, where someone in the 
White House has the authority to take a look at the whole 
picture and say here is how the CIA and the FBI and the INS and 
all of the different agencies will have a computer system that 
can ultimately merge data into an effective use.
    In the frustration of the arrest of Mr. Moussaoui in 
Minneapolis, the FBI agent who testified said, ``We even 
thought at one point that we would break the rules and go to 
the CIA for information'' to find out what was going on. That 
was considered out of line, I guess, but from where I am 
sitting, she did the right thing, or at least the people 
involved did the right thing.
    So what is being talked about in terms of coordinating all 
of these agencies so that there is some interoperability of the 
computer systems?
    Ms. Higgins. We are having conversations with the other 
agencies to see how their architecture is set up. We are taking 
lessons learned from other agencies. We are making sure that 
the architecture that we are building is going to be robust and 
be able to--at some point in the future; the plans are not 
laid, the plans are not in effect yet--but the plan is to be 
able to do just exactly what you are talking about, that is, to 
make sure that we have the technology and the architecture in 
place that will allow us to share information.
    There is a data mining/data warehousing program within the 
FBI that Ken Richard is program manager for. The Trilogy 
program is working in lockstep with both data mining and data 
warehousing, which gives you the capability to look at 
information both from within the FBI and other agencies.
    Senator Durbin. The reason I raise that--I think that has 
to be done, and I think there has to be someone at the highest 
level, perhaps at the White House, who really does have this 
Manhattan Project type--we are looking for a new word--but a 
Manhattan Project type approach----
    Chairman Schumer. How about the Brooklyn Project? 
[Laughter.]
    Senator Durbin [continuing]. Well, the Brooklyn Project--
you heard it here, folks--but the idea is to come up with 
something that coordinates these things.
    For example, 6 weeks ago, I believe it was, the Attorney 
General announced that he had a plan to fingerprint and 
photograph visa-holders coming into the United States. He did 
not specify the number of people involved, but it is my 
impression that it could range as high as some 30 million visa-
holders who are in the United States during the course of a 
year. I thought at the time that that raised an interesting 
Constitutional question, an interesting profiling question, an 
interesting law enforcement question, but it is almost 
laughable from a technology viewpoint to think that we have the 
capability to collect, process, share, evaluate millions of 
pieces of information about visa-holders coming in on a regular 
basis.
    Do you think we have that capability at the FBI and the INS 
today?
    Ms. Higgins. Well, first of all, are you saying INS within 
FBI?
    Senator Durbin. Yes.
    Ms. Higgins. With the systems that we have right now, with 
just this year's photographs, I do not think we have the 
capability for it to be retrievable. That kind of data 
collection and being able to be retrievable is what we are 
moving to. The architecture that we are building is scalable.
    Senator Durbin. That is the way that I feel. I think that 
is an honest answer. And it really raises a question about why 
we announce something like this when we know it is over the 
moon--it is not going to happen.
    If I am not mistaken--and maybe you or one of your 
colleagues can answer this--2 or 3 years ago, Congress said to 
the INS and to the FBI, We want you to merge your fingerprint 
data bases, because both collect them, and in a merged data 
base, we would be able to come up with a lot more usable 
information.
    The Inspector General for the Department of Justice told us 
just a few weeks ago that they are still not even close to that 
happening. Are you familiar with that Congressional mandate and 
the progress on that merger at the data bases?
    Ms. Higgins. No, I am not.
    Mark, do you know anything about that? I am not familiar 
with IAFIS and the fingerprinting systems, and Mark obviously 
has some knowledge.
    Mr. Tanner. I am familiar with it. It is mainly a different 
operational posture that we take. INS does a two-print check, 
and we do a 10-print check, so there are differences in the 
technologies that support those two operational postures. There 
has been a lot of work done to figure out how those things can 
be integrated. Right now, off the top of my head, I do not have 
the details of where we are on that.
    Senator Durbin. I will not put you on the spot, but it is 
another illustration that when we have an announcement from the 
Department of Justice about potentially collecting tens of 
millions of fingerprints and photographs of visa-holders coming 
into the United States, and we take a look at the real world, 
technology world, that you live in, we realize that it is 
impossible. We do not have it.
    I asked someone on the Intelligence Committee at a higher 
level, and he said the only option is to contract this out. We 
cannot do this.
    I think we just went through a contracting out debate over 
security at airports, so we would have to face that issue, too, 
as we get into it.
    Let me ask you this, Ms. Higgins. As you take a look at the 
computer capabilities at the FBI today and compare it to the 
computer capabilities of AT&T or Lucent where you used to work, 
what are the most obvious things that a worker at Lucent would 
walk in and look at the FBI system and say, ``Wait a minute--
you do not have''--fill in the blank. What is missing at the 
FBI today?
    Ms. Higgins. First of all, the PC technology, which we are 
changing out. A part of Trilogy is upgrading the laptop or the 
work station environment.
    Another is what I alluded to about the green screen 
environment as opposed to a gooey-based or a mouse-driven 
application that people use.
    One of the other glaring things is email, lack of email. We 
are looking at that as far as being able to do intra email. 
Right now, the FBI does have an email package, but when we are 
looking at what we will be implementing and what someone like 
myself coming in from the outside, if I were to look at it, I 
would be expecting at least a more state-of-the-art email 
package.
    It is those kinds of things that you would see as a 
layman--or, not a layman--but someone from a communications 
company coming in.
    Senator Durbin. Do FBI computers have access to the 
internet?
    [Pause.]
    Senator Durbin. It is taking you too long to answer.
    Ms. Higgins. FBINET--the information that we have within 
the FBI--is not accessible through the internet. We are 
looking----
    Senator Durbin. Of course, that is good. Now, how about the 
other way?
    Ms. Higgins. And it is not accessible the other way, the 
way that we have it planned.
    Senator Durbin. So an FBI agent working at a computer who 
wants to access the internet for some information in an 
investigation cannot do it?
    Ms. Higgins. That is not true, that is not true. I am 
sorry.
    Senator Durbin. What is true?
    Ms. Higgins. Another part that is being planned outside of 
the Trilogy Project is what we are calling an internet cafe. 
That is where they will have the capability to search for 
information, but because of legal ramifications, they will not 
be doing case information on the internet. They will be able to 
mine for information and then stake it and use it----
    Senator Durbin. But today, that does not exist.
    Ms. Higgins. In some of the field offices where we have 
already implemented, they have some of that capability.
    Senator Durbin. All right. So it does not exist throughout 
the agency.
    Senator Schumer asked Director Mueller at an earlier 
hearing about word search, and I believe the answer was that 
they could search for the name of a person in a file, but they 
could not search for a phrase like ``flight training schools''. 
Is this true?
    Ms. Higgins. You can put multiple word searches into ACS, 
and that is the system that I had put before. I know that there 
were some questions--there are some issues within ACS and some 
of the systems, and the fact that you have to go into each 
system to do multiple searches. But because it is an older 
system, and because it does not ahve the robust search engine 
in there, there is the ability to make a mistake and not get 
the information back.
    You can put in ``flight school'' and other information. I 
believe Mr. Collingwood explained in more detail some of the 
issues about how you could go down through ACS in itself and 
further refine your search, so you could put ``flight school'' 
or you could put ``Minnesota flight school''.
    Senator Durbin. The Wall Street Journal piece that was 
written back in July by Messrs. David Rogers and John Wolke 
went into some of the Bureau's case numbering systems. Does the 
Bureau still hand out this little blue or yellow booklet with 
J. Edgar Hoover's case numbering system?
    Ms. Higgins. Right.
    Senator Durbin. And is that still being followed in the 
computer programs that you are constructing?
    Ms. Higgins. As it stands today, they are, but we do not 
have the final system yet. We are looking at all the business 
processes.
    Senator Durbin. Just to show you how archaic it is, the 
Wall Street Journal writes that: ``The system issued to every 
FBI agent still includes offenses relating to prohibition, 
white slaver, and sedition.'' That is not encouraging.
    I have two final questions, and I will make them as fast as 
I can. It seems to me that if you were starting a corporation 
with the data challenge that we have today, and you said we 
will not be operational until the middle of 2004 that your 
investors would say, ``That does not compute. If you cannot be 
operational in a faster period of time, then you are not going 
to serve our needs'' and in this case, serve the needs of 
national security.
    Mr. Dies, who testified here a couple of times, brought to 
my attention problems with procurement and the procurement laws 
of the Federal Government. I will not go into the long history 
about how I got involved in this, but my question to you 
directly is this. Are there procurement laws in the Federal 
Code that are stopping or slowing you from doing what you would 
do in the private sector to cutoff 6 months, a year, or 2 years 
and move more quickly into a modern system that would serve the 
FBI's needs?
    Ms. Higgins. I would say yes, and I would say that things 
that we have had to do because of that will tie our hands in 
cases of putting in a faster way to procure the funds or to 
acquire the funds, and in one case, tie our hands in being able 
to deal directly with the vendors that we have.
    Senator Durbin. So if you brought in Oracle and said, 
``Design the system,'' they would be disqualified from bidding 
on the system.
    Ms. Higgins. Right.
    Senator Durbin. I will tell you--I might as well put it on 
the record--that I went all the way up the chain from Director 
Muller, Attorney General Ashcroft, Vice President Cheney, to 
the President, and said I am prepared to put in language to 
waive the procurement laws. Let us get beyond this, and I will 
take the heat if I am wrong, but we have got to bring in the 
new system. And I was stopped by--who would stop me--OMB. OMB 
stopped me last Decmeber and said, ``No. We want you to follow 
procruement laws, and the people at the FBI just do not 
understand them.''
    Now, I am going to give to you the same challenge that I 
gave to Mr. Dies. I want to bring you in with OMB and sit down 
and go through this again, beacuse time has passed, and we 
cannot afford anymore delay here. And if this is being caught 
up in some red tape and bureaucracy, it is time to put an end 
to it. We need to have a modern computer system.
    Mr. Chairman, you have been kind to give me extra time, and 
I yield back.
    Chairman Schumer. Great job.
    I want to thank you, Ms. Higgins. We have these written 
questions, and we hope to now have our Chief Information 
Officer, as soon as he is i office, come before us for more 
questions, and we are going to keep pursuing this until things 
get up to snuff.
    We thank you.
    Ms. Higgins. Thank you.
    Chairman Schumer. I ask unanimous consent that statements 
of Senators Hatch and Cantwell be read into the record. Without 
objection.
    Chairman Schumer. The hearing is adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T7062.001

[GRAPHIC] [TIFF OMITTED] T7062.002

[GRAPHIC] [TIFF OMITTED] T7062.003

[GRAPHIC] [TIFF OMITTED] T7062.004

[GRAPHIC] [TIFF OMITTED] T7062.005

[GRAPHIC] [TIFF OMITTED] T7062.006

[GRAPHIC] [TIFF OMITTED] T7062.007

[GRAPHIC] [TIFF OMITTED] T7062.008

[GRAPHIC] [TIFF OMITTED] T7062.009

[GRAPHIC] [TIFF OMITTED] T7062.010

[GRAPHIC] [TIFF OMITTED] T7062.011

[GRAPHIC] [TIFF OMITTED] T7062.012

[GRAPHIC] [TIFF OMITTED] T7062.013

[GRAPHIC] [TIFF OMITTED] T7062.014

[GRAPHIC] [TIFF OMITTED] T7062.015

[GRAPHIC] [TIFF OMITTED] T7062.016

[GRAPHIC] [TIFF OMITTED] T7062.017

[GRAPHIC] [TIFF OMITTED] T7062.018

[GRAPHIC] [TIFF OMITTED] T7062.019

[GRAPHIC] [TIFF OMITTED] T7062.020

[GRAPHIC] [TIFF OMITTED] T7062.021

Prepared Statement of Ms. Sherry Higgins Project Management Executive, 
         Office of the Director Federal Bureau of Investigation

    Good morning. I'm Sherry Higgins, the FBI's Project Management 
Executive for the Office of the Director. I have been asked to talk to 
you about how the FBI is fixing old problems and building a 
collaborative information infrastructure to better support our mission. 
I have also been asked to share with you some personal perspectives on 
how the FBI differs from the private sector in developing our computing 
infrastructure.
    Today, we live in a dangerous world, where criminals and terrorists 
exploit advances in technology to perpetrate crimes against United 
States citizens and our national interests. High-speed digital and 
wireless communications, including the Internet, are the ``tools of 
choice.'' Instant global communication has expanded traditional 
organized crime and allowed terrorists to operate from the remotest of 
areas.
    These kinds of abilities helped facilitate the 9/11 attacks. In 
response, Director Mueller is restructuring and reshaping the FBI to 
better fit a new mission with different priorities and to put in place 
the analytical and information sharing capabilities needed in the post-
9/11 environment.
    A component is the information infrastructure necessary to enhance 
our ability to collect, store, search, retrieve, analyze and share 
information. Prior testimony before Congress has described the problems 
the FBI is experiencing because of outdated technology. Thanks to 
support from Congress, the FBI has embarked on the information 
infrastructure revitalization that I will describe today and that is 
well under way. A word of caution, however. The FBI's problems with 
information technology didn't occur over night and they won't be fixed 
over night either. That is because it is more important to get it right 
and know that we have the systems and capabilities that precisely fit 
our mission as well as cure past problems.
    The first major step in this direction is our Trilogy Program. The 
Trilogy Program was designed as a 36-month effort to enhance our 
effectiveness through technologies that facilitate better organization, 
access and analysis of information.
    The overall direction of the Trilogy Program is to provide all FBI 
offices with improved network communications, a common and current set 
of office automation tools, and easy-to-use, re-engineered, web-based 
applications. Our Trilogy system consists of 3 components:
    Information Presentation Component (IPC). Hardware and software 
within each office to provide each employee with a current ``desk top'' 
environment and equipment.
    Transportation Network Component (TNC). High-speed connections 
linking the offices of the FBI.
    User Applications Component (UAC). Five user-specific software 
applications to enhance each employee's ability to access, organize and 
analyze information.
    The Information Presentation Component relies primarily on 
commercial-off-the shelf (COTS) hardware and software products that 
provide a modern desktop environment and connectivity, thus 
facilitating employees' ability to input, retrieve, manipulate and 
present information in text, image, audio and video formats. The 
Information Presentation Component is replacing our antiquated computer 
workstations, providing an updated e-mail capability, and includes 
simple things like additional printers and scanners that increase 
productivity. This component is nearing completion.
    The Transportation Network Component is simply the 
telecommunications network consisting of high-speed connections linking 
the offices of the FBI, and the hardware, software and new workstations 
within each office to link at high speeds the entire FBI. It will 
provide connectivity between FBI facilities (via a WAN) and within FBI 
facilities (via a LAN), so that investigative information and analysis 
may be shared among agents and analysts easily, accurately, rapidly and 
securely, and at the high data volumes our new applications support. 
This is nearing completion as well.
    The User Application Component is replacement of user applications 
that will enhance our ability to access, organize and analyze 
information. Specifically, the Trilogy Program will migrate five 
investigative applications into a ``Virtual Case File'' (VCF), to 
provide user-friendly, web browser access to mission critical 
information. A web-based interface will enable our users to have a 
graphical interface with investigative information. It will eliminate 
the cumbersome aspects of our current system, greatly enhance our 
collaborative environment and go a long way towards eliminating the 
problems obvious from Hanssen and McVeigh.
    Under the FBI's old legacy investigative information system, the 
Automated Case Support (ACS), users navigate with the function keys 
instead of the point and click method common to web based applications. 
Simple tasks, such as storing an electronic version of a document 
today, require a user to perform twelve separate functions, in a 
``green screen'' environment. That will soon change with Trilogy. 
Automated workflow will allow for a streamlined process to complete 
tasking. Storing a document for the record will occur with a click of 
the mouse button. This will make investigative and intelligence 
information immediately available to all personnel with appropriate 
security.
    Enhanced ad hoc reporting, online information sharing and state-of-
the-art analytical tools will permit those conducting investigations 
and analyzing data to easily organize and filter events and trends. 
Representatives from our field offices who are defining the VCF user 
needs are also challenging current FBI business practices to improving 
workflow and to ensure that archaic business rules are not automated.
    Multimedia functionality will allow for the storage of information 
in its original form. Under the old system, agents cannot store non-
compatible forms of digital evidence in an electronic format, instead 
having to describe the evidence and indicate where the evidence is 
stored in a control room. Multimedia functionality will facilitate 
electronic storage of digital evidence and media to the investigative 
case file, allowing access to the information from the desktop.
    Trilogy also includes an Enterprise Management System (EMS), that 
supports all three of the components of the Trilogy Program. The EMS 
will allow the FBI to configure, monitor and administer information 
systems and components through a central Enterprise Operations Center 
(EOC), with local Field Office visibility into the status of equipment 
at their location. The EMS will gather and provide appropriate IT 
system metrics for Trilogy from the operations center. EMS functions 
include mandatory and optional capabilities for fault, configuration, 
accounting, performance, and security management.
    The original plan for Trilogy was development and deployment over 
36 months from the date of the contract awards for the infrastructure 
and applications development, May and June 2001, respectively. The 
events of September 11, 2001 impacted many aspects of the FBI, 
including the Trilogy Program. The urgent need for improved information 
technologies prompted the Director to request that Trilogy 
implementation be accelerated, with emphasis on those capabilities most 
urgently needed to support the FBI's priority cases.
    In response, Congress provided additional funding and Trilogy's 
network and desktop infrastructure improvements were accelerated. The 
resulting improvements are significant.
    Infrastructure enhancements are being deployed in two phases.The 
first phase, called ``Fast Track'', is installation of Trilogy 
architecture at our 56 Field Office locations and as many of our 
Resident Agencies as can be completed before the second phase begins. 
This consists of new network printers, color scanners, local area 
network upgrades, desktop workstations, and Microsoft Office 
applications. By the end of April 2002, deployment at all 56 FBI Field 
Offices and two Information Technology Centers (ITCs) was completed. 
Fast Track is continuing to deploy this infrastructure to our Resident 
Agencies.
    The second phase of infrastructure deployment is called ``Full Site 
Capability,'' representing the complete infrastructure upgrade. The 
full upgrade will provide the wide area network connectivity together 
with new encryption devices to protect our data, new operating systems 
and servers, and new and improved e-mail capability. The WAN design 
also has been enhanced to eliminate possible single points of failure. 
Completion of this phase was moved from the accelerated date of July 
2002 to March 2003 to allow additional time to test and deploy a 
secure, operational system.
    The Enterprise Operations Center (EOC) facilities, circuit and bulk 
fiber installations, electronic key management system, and installation 
of encryptors are all on schedule.
    User training on the new desktop office automation software has 
begun and a new training management system deployed.
    The UAC component is scheduled to be delivered by January 2004, or 
four months ahead of the original schedule. And although the Trilogy 
Program is accelerating the network and desktop infrastructure ahead of 
applications development, there are significant benefits to modernizing 
the infrastructure before the upgraded applications are available. 
Infrastructure enhancement will immediately provide FBI field offices 
the high-speed connections to link with one another (and within each 
office) and share investigative and administrative information 
currently available in their legacy systems. It will provide nearly 
every FBI employee a modern desktop, and applications and database 
productivity tools, which will significantly enhance work productivity.
    Further, during the interim while Trilogy UAC is under development, 
the FBI is enhancing some of our existing legacy systems to enable web 
access to certain applications. So, for example, two new capabilities 
are the Case Control system and Global Index Application. The Case 
Control system was delivered in April 2002; the Global Index 
Application was delivered in April 2001. The Case Control System keeps 
track of the location of each Counter-terrorism related hard copy file, 
as it is routed to our field divisions and nine scanning centers; this 
ensures that all files are scanned and accurate file locations 
maintained. The Global Index Application allows the user to search for 
a name, date of birth, address, and/or phone number, against four of 
our main investigative applications systems (ACS, IIIA, CLEA, and TA), 
with one query, returning basic case information.
    The User Application development is now planned in two increments. 
The initial VCF release will migrate data from the current Automated 
Case Support (ACS) and IntelPlus to the VCF. VCF Release One has a 
targeted completion date of December 2003. This release will allow 
different types of users, such as agents, analysts, and supervisors, to 
access information from a ``dashboard'' that is specific to their 
individual needs. This VCF release will also enhance our capability to 
set and track case leads, index case information, and move document 
drafts more quickly through the approval process, with digital 
signatures.
    The second release will migrate the Criminal Law Enforcement 
Application (CLEA), Integrated Intelligence Information Application 
(IIIA), and Telephone Application (TA) into the VCF. VCF Release Two 
has a targeted completion date estimated for June 2004. It will provide 
Audio/Video Streaming capability and provide our agents with ``content 
management'' capability. This will help them access information from 
our data warehouse, regardless of where in the system the information 
was entered. For the first time we will have a ``one query does it 
all'' capability.
    The VCF Team is currently using an industry-standard process called 
Joint Application Development (JAD) planning, to define and prioritize 
the users' operational requirements. By joining the application 
developers with the users (agents, analyst, and support personnel), 
applications will be built that will reflect the items needed by these 
individuals to perform their jobs. This approach differs from the old 
way of doing business: figuring out how to do your job with the tools 
you already have. JAD is not a rebuild of the old system. It has 
brought users, designers, future systems operators together to develop 
applications that are operationally sound and maintainable. JAD 
sessions started at the end of January this year and are expected to 
conclude next week. Additional JAD sessions will take place as part of 
the process for VCF Release Two.
    As with any automation project, a number of risks must be managed 
to a have a successful Trilogy Program deployment. The top three are 
all related to our aggressive deployment schedule. I believe all are 
manageable. They are: INC/PC and UAC test and acceptance; the 
enterprise operations center; and legacy system interoperability.
    Before we deploy our Full Site Capability infrastructure to the 
field, we need to test the desktops, servers, and networks to ensure 
that there are no problems with our final configuration. Our current 
schedule allows a tight allocation of time for testing, which leaves 
little room for resolving potential problems. To mitigate this risk, 
the test team is prioritizing requirements and developing a common 
understanding of system acceptance test coverage, conditions, and 
criteria. Once identified, the plan is to test the most critical 
aspects of the system first, and, if necessary, continue testing the 
non-critical areas during initial deployments.
    Our aggressive schedule also leaves little time for EOC 
preparations in support of the deployed infrastructure. To mitigate 
this risk, current available EOC staff will be trained to support the 
Trilogy infrastructure and additional external resources will be 
identified for full operational support at the start of FSC deployment. 
Finally, contractor personnel will be utilized to supplement government 
staff for network services, central systems, security and the data 
center.
    Interoperability with legacy applications is another risk area. 
There is currently a lack of documentation in place that captures the 
old legacy system functions and operations. Therefore, the UAC team is 
still identifying new interfaces and modifications to existing 
interfaces. Our schedule allocation for engineering and testing may not 
be adequate for successful integration infrastructure deployment with 
the current applications and servers. To mitigate this risk, the test 
team is also prioritizing these test requirements and developing a 
common understanding of system acceptance test coverage, conditions and 
criteria.
    Once we catch up to a standard PC environment, the future looks 
very positive. We are planning for a technology refreshment program 
(TRP) which will replace Trilogy network and workstation hardware, 
network data storage, server hardware, and embedded software on a 
periodic basis to prevent system performance degradation and rising O&M 
costs due to obsolescence. The TRP also envisions the incorporation of 
new technology as it becomes available in the private sector and the 
study of emerging technologies to evaluate potential future uses and 
benefits and to better anticipate future resource needs. In essence, a 
viable infrastructure technology refreshment plan is essential to 
maintain the benefits of the Trilogy investment, the efficiency and 
capabilities of FBI investigative support systems and to better plan 
and budget for out year expenditures.
    I have been asked to provide my personal perspective on what I have 
changed since reporting to the FBI this March, and how the FBI 
contrasts with my experience in the private sector.
    Before my arrival at the FBI, the Trilogy Program was overly 
focused on achieving an accelerated schedule. Although the Trilogy 
Program will still be brought in ahead of its original schedule, we 
have begun allowing for more test time to ensure we deliver a quality 
product to the field. Industry best practices recommend ``building in 
quality'', instead of ``inspecting it in''. Using quality standards and 
compliance up front will allow us to identify and prevent mistakes that 
would require expensive fixes later on down the line.
    Effective communications within and without the Trilogy Program is 
also essential to our success. I am in the process of developing a 
Trilogy Communications Plan that will promote effective communications 
across our business enterprise, so that valuable development 
information is not retained in pockets.
    I am also developing an integrated master schedule for the Trilogy 
Program, which will reflect the program's critical path, dependencies 
and integration tasks between our three components. We will constantly 
review this schedule to capitalize on efficiencies and schedule 
improvement opportunities.
    One of the striking differences between the private sector and the 
FBI is the Bureau's lack of a dedicated corps of acquisition 
specialists with which to plan, develop and manage large projects. The 
FBI has many talented people with some of these requisite skills; we 
have pockets of expertise in program management disciplines, such as 
financial analysis, budgeting, contract management and system 
engineering, residing in different divisions. However, the FBI has 
operated for too long without an organization responsible for proper 
development business practices, which would ensure that FBI systems 
under development are responsive to our users' requirements.
    Private industry and most government agencies recognize the 
advantages of instituting a project management executive with a project 
management office to manage complex, expensive, high-risk development 
efforts. According to the Gartner Group, ``enterprises utilizing a 
project office to manage the growing complexity involved with creating 
or acquiring and then implementing and managing these applications have 
a distinct advantage over those that do not.''. Perhaps the most 
frustrating experience I have had since coming to the FBI from private 
industry is trying to work information technology issues that cut 
across the FBI's organization. ``Stove piped'' communications internal 
to the FBI prevents information and communications flow that is 
required to be responsive to our users and oversight. Successful 
project development and implementation at the FBI requires constant and 
accurate communications across our entire business enterprise.
    To make this a reality, I have recommended, and Director Mueller 
has approved of the establishment of an Office of Programs Management. 
This office will develop, manage, and deploy high-priority, complex and 
high-risk projects of high dollar value, to successfully support the 
FBI's operational mission. The office will have a staff of subject 
matter experts in key program management functions, matrixed to 
development project managers. These project managers will be ``loaned'' 
from their sponsoring divisions to the Office of Program Management 
during the development of the project, from the concept phase until the 
project is ready to be transitioned to operations.
    In addition, the Office of Program Management will be charged with 
using repeatable processes for these efforts; in other words, we will 
implement a business approach to our large acquisition efforts, by 
instituting core program management disciplines from a project's 
concept phase until it is transitioned to operations and maintenance. 
We will train a skilled corps of FBI PM subject matter experts, and 
advise the FBI Director on program management and acquisition-planning 
related organizational issues, proposals, and strategies.
    Because of its user/management orientation, the Office of Program 
Management will be in a position to make the most informed 
recommendations concerning trade-offs between performance, schedule, 
and costs of projects, to determine the best course for return on the 
FBI's investment in IT. This office will also gauge the impacts of 
delays of delivered functionality for the field divisions and 
headquarters, and develop budget justifications for the acquisition of 
required resources to support approved systems projects.
    In summary, Trilogy gives the FBI workable standards and a base it 
can build upon. Trilogy is being built to allow for interchanges with 
different systems, internal and external, so that the historical 
problem of ``not putting the pieces together'' is no longer an issue. 
Trilogy will provide the resources and tools the FBI needs to support 
investigations and the critical building blocks for future 
improvements. The Trilogy Program is focused on getting these critical 
resources to our Special Agents and field support personnel as quickly 
as possible.


</pre></body></html>
